No. 19-1212

In the Supreme Court of the United States
ALEJANDRO N. MAYORKAS,
SECRETARY OF HOMELAND SECURITY, ET AL.,
PETITIONERS

v.
INNOVATION LAW LAB, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITIONERS’ REPLY IN SUPPORT OF
MOTION TO VACATE THE JUDGMENT
OF THE COURT OF APPEALS

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
A. Vacatur is warranted ........................................................ 3
B. Respondents offer no sound basis for leaving the
decision below in place ...................................................... 3
TABLE OF AUTHORITIES

Cases:
Alvarez v. Smith, 558 U.S. 87 (2009) ................. 1, 3, 4, 6, 7, 8
Board of Regents of the Univ. of Texas Sys. v. New
Left Educ. Project, 414 U.S. 807 (1973) .............................. 4
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs.
(TOC), Inc., 528 U.S. 167 (2000) .......................................... 4
Karcher v. May, 484 U.S. 72 (1987) ................................... 5, 6
U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship,
513 U.S. 18 (1994) ............................................. 2, 4, 5, 6, 7, 8
United States v. Munsingwear, Inc.,
340 U.S. 36 (1950) ............................................................. 1, 3
Miscellaneous:
13C Charles Alan Wright et al., Federal Practice
and Procedure (3d ed. 2008) ............................................ 4, 5

(I)

In the Supreme Court of the United States
No. 19-1212
ALEJANDRO N. MAYORKAS,
SECRETARY OF HOMELAND SECURITY, ET AL.,
PETITIONERS

v.
INNOVATION LAW LAB, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITIONERS’ REPLY IN SUPPORT OF
MOTION TO VACATE THE JUDGMENT
OF THE COURT OF APPEALS

Respondents concede (Vacatur Opp. 1) that they no
longer have any “interest in the prospective relief entered by the district court” concerning the Migrant Protection Protocols (MPP) and that the controversy before this Court is therefore moot. The Court’s “normal[ ]” practice in such a circumstance is to “vacate the
lower court judgment” and thereby “ ‘clear[ ] the path
for future relitigation of the issues.’ ” Alvarez v. Smith,
558 U.S. 87, 94 (2009) (quoting United States v. Munsingwear, Inc., 340 U.S. 36, 40 (1950)). That ordinary
course makes eminent sense here. The preliminaryinjunction decision of the divided Ninth Circuit merits
panel—which disagreed with the prior decision of the

(1)

2
Ninth Circuit stay panel and which manifestly warranted this Court’s review—should not be allowed to
control future litigation about important questions of
immigration law in the Nation’s largest circuit simply
because this appeal became moot for reasons unrelated
to the pending legal challenges to MPP.
Respondents contend that a different course is warranted in this case, however, because mootness arose as
a result of the government’s own actions. That contention is misplaced. This Court has never adopted respondents’ proposed categorical rule, under which a
party whose voluntary actions have caused a case to
become moot could never obtain vacatur. Instead, consistent with vacatur’s status as an “equitable” determination, U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship,
513 U.S. 18, 29 (1994), the Court has applied a “f lexible,”
case-specific approach, and it has found vacatur appropriate when the petitioning party acted for good-faith
reasons external to the litigation rather than “a desire
to avoid review,” Alvarez, 558 U.S. at 94, 97.
Applying that approach here, the case for vacatur is
clear: after a months-long review directed by the President, the Secretary of Homeland Security terminated
the MPP program because he determined that continuing to apply it would be contrary to the interests of the
United States, not because he sought to avoid further
litigation over MPP’s legality. In no way does equity
demand that, as a consequence of the Secretary’s determination about the Nation’s immediate immigrationenforcement and foreign-relations needs, the decision
below must be left in place as a potential obstacle to the
future implementation of federal immigration law by
the Department of Homeland Security (DHS). Instead,
the Court should vacate the decision below and clear the

3
path for fresh consideration of the issues if and when
they arise in the context of a live dispute.
A. Vacatur Is Warranted

Because the Secretary has terminated MPP based
on his determination that continuing to apply it would
be contrary to the interests of the United States, it is
now common ground that respondents retain no “interest in the prospective relief entered by the district
court.” Vacatur Opp. 1. The dispute over whether the
district court’s entry of a preliminary injunction was
justified has therefore become moot. And the Court’s
“established practice” when a case becomes moot while
“pending [a] decision on the merits” has long been to
“vacate the judgment below and remand with a direction to dismiss.” Munsingwear, 340 U.S. at 39; see, e.g.,
Alvarez, 558 U.S. at 94 (“[W]e normally do vacate the
lower court judgment in a moot case.”). That course
“ ‘clears the path for future relitigation of the issues
between the parties,’ preserving ‘the rights of all parties,’ while prejudicing none ‘by a decision which . . .
was only preliminary.’ ” Alvarez, 558 U.S. at 94 (citation
omitted).
The Court’s ordinary practice is particularly warranted in the circumstances here. As the government’s
motion for vacatur explained (at 14-15), the court of
appeals made multiple significant pronouncements, and
its decision should not be permitted to impose future
“legal consequences” now that the appeal has become
moot. Munsingwear, 340 U.S. at 41.
B. Respondents Offer No Sound Basis For Leaving The
Decision Below In Place

Respondents resist application of this Court’s standard vacatur practice here, arguing (Vacatur Opp. 4-10)

4
that vacatur should be denied because the mootness of
this appeal resulted from the government’s voluntary
actions rather than some external cause. That argument is unpersuasive for multiple reasons.
1. In the first place, respondents’ proposed rigid
rule—that the government may never obtain vacatur
when “mootness is attributable solely to the government’s own ‘voluntary conduct,’ ” Vacatur Opp. 6 (quoting Friends of the Earth, Inc. v. Laidlaw Envtl. Servs.
(TOC), Inc., 528 U.S. 167, 194 n.6 (2000))—is inconsistent with the equitable nature of the Munsingwear
doctrine. This Court has emphasized that “[t]he statute
that enables [the Court] to vacate a lower court judgment when a case becomes moot is f lexible,” Alvarez,
558 U.S. at 94, and allows the Court to select the outcome “ ‘most consonant to justice’ ” in light of the specific facts of a given case, U.S. Bancorp Mortgage, 513
U.S. at 24 (citations omitted). That equitable discretion
should not be applied in a wooden manner that “deter[s]” public actors from taking “good faith” governmental actions that have the incidental effect of mooting
a pending court challenge. 13C Charles Alan Wright et
al., Federal Practice and Procedure § 3533.10.1, at 583
(3d ed. 2008) (Federal Practice & Procedure) (discussing Board of Regents of the Univ. of Texas Sys. v. New
Left Educ. Project, 414 U.S. 807 (1973)).
Here, the Secretary terminated MPP based on a
months-long evaluation of the program that considered
the best ways to address the immigration-enforcement
and foreign-relations interests of the United States.
See Mot. App. 1a-15a. The Secretary ultimately determined (among other things) that continued use of MPP
would “not adequately or sustainably enhance border
management in such a way as to justify the program’s

5
extensive operational burdens and other shortfalls,”
and would “draw[ ] away from other elements that
necessarily must be more central to the bilateral relationship” with Mexico. Id. at 7a, 13a. The Secretary
should not be deterred from acting on such significant
governmental concerns by the prospect that doing so
would render unreviewable an intermediate judicial
decision that “may have untoward consequences in
the unforeseen future.” Federal Practice & Procedure
§ 3533.10.1, at 583.
2. Respondents effectively concede (Vacatur Opp. 7)
that the categorical anti-vacatur rule they propose is
inconsistent with this Court’s decision in New Left
Education Project and the Court’s indications in Munsingwear itself that vacatur would have been available
had the government sought it. Respondents instead
suggest (ibid.) that this Court implicitly overruled those
decisions in U.S. Bancorp Mortgage. But that decision
affirmatively “express[ed] no view on Munsingwear’s
implicit conclusion” in this regard, 513 U.S. at 25 n.3,
and it predated other decisions illustrating the Court’s
willingness to vacate a judgment adverse to the government when mootness resulted from voluntary governmental action unrelated to pending litigation.
It is true, of course, that a party which voluntarily
forfeits the ordinary means of judicial review through
its litigation conduct—such as by failing to appeal or
settling the claims against it—ordinarily has no equitable right to use “the secondary remedy of vacatur as a
refined form of collateral attack on the judgment” below. U.S. Bancorp Mortgage, 513 U.S. at 27; see Vacatur Opp. 6 (discussing U.S. Bancorp Mortgage and
Karcher v. May, 484 U.S. 72 (1987)). In Karcher, for
example, the legislature had not amended the law that

6
had been invalidated by the court of appeals; instead, the
legislature’s officers had simply abandoned the litigation
by failing to file a notice of appeal. 484 U.S. at 83 (“The
controversy ended when the losing party—the New
Jersey Legislature—declined to pursue its appeal. Accordingly, the Munsingwear procedure is inapplicable
to this case.”). And in U.S. Bancorp Mortgage, the creditor agreed to a comprehensive settlement of its claim
in bankruptcy court—including resolving its “differences [with the debtor] on th[e] particular contested legal point,” Alvarez, 558 U.S. at 95—while the case was
pending in this Court. See U.S. Bancorp Mortgage, 513
U.S. at 20.
This case bears no resemblance to those situations.
And this Court has recognized that vacatur may remain
appropriate where, as here, a case becomes moot because of good-faith actions outside the litigation that are
taken by the appealing party for reasons other than “a
desire to avoid review.” Alvarez, 558 U.S. at 97.
In Alvarez, for example, this Court had granted a
writ of certiorari to review a decision holding that Illinois law violated due process by failing to provide a sufficiently speedy opportunity for individuals to test the
lawfulness of warrantless seizures of their property.
See 558 U.S. at 89. Before the Court could render a
decision, some plaintiffs abandoned their claims and
Illinois agreed to return the property it had seized from
the remaining plaintiffs. See id. at 91-92. Because the
plaintiffs’ complaint had sought only injunctive relief,
not damages, that voluntary return of the property
mooted the dispute over the State’s procedures. See id.
at 92-94. The Court then followed its “normal[ ]” practice and vacated the court of appeals’ now-unreviewable
decision. Id. at 94; see id. at 94-97. In doing so, the

7
Court rejected the plaintiffs’ argument—materially indistinguishable from respondents’ argument here—
that the “ ‘settlement’ exception” precluded vacatur because the State had voluntarily “agreed to return” the
plaintiffs’ property. Id. at 94.
The Alvarez Court explained that the State’s voluntary return of property was not “the kind of settlement
that the Court” had considered sufficient to make vacatur inequitable. 558 U.S. at 94. In U.S. Bancorp Mortgage, the parties had agreed to a settlement for the purpose of resolving the very claim at issue, with the result
that the appealing party had “voluntarily forfeited [its]
legal remedy by the ordinary process of appeal or certiorari.” Alvarez, 558 U.S. at 95 (quoting U.S. Bancorp
Mortgage, 513 U.S. at 25). In Alvarez, by contrast, the
State had evidently agreed to return the property not
in order to resolve the plaintiffs’ suit about the timeliness of the State’s procedures, but simply because, having completed the “related criminal proceedings,” the
State determined “for evidentiary reasons that it did
not wish to claim the cars.” Id. at 96. In those circumstances, where the State’s actions were not prompted by
“a desire to avoid review” in the case pending before
this Court, “there [wa]s not present * * * the kind of
‘voluntary forfeit[ure]’ of a legal remedy that [had] led
the Court in Bancorp to find that considerations of ‘fairness’ and ‘equity’ tilted against vacatur.” Id. at 97 (second set of brackets in original).
The same principle supports vacatur in this case as
well. As discussed above, see pp. 4-5, supra, the Secretary’s decision to terminate MPP was based on the
immigration-enforcement and foreign-policy interests
of the United States—not a desire to avoid this Court’s
review of MPP’s legality. Just as it would have been

8
inequitable to require Illinois to continue withholding
the plaintiffs’ property in Alvarez solely to avoid the future legal consequences of the court of appeals’ adverse
decision, so too would it be inequitable to require the
Secretary to maintain MPP here—even after he determined that doing so would be contrary to the national
interest—solely to avoid the future legal consequences
of the Ninth Circuit merits panel’s divided decision.
These are among “the vagaries of circumstance” under
which the government “ought not in fairness be forced
to acquiesce in the judgment” below. U.S. Bancorp
Mortgage, 513 U.S. at 25; see Alvarez, 558 U.S. at 94
(“[T]his case more closely resembles mootness through
‘happenstance’ than through ‘settlement’—at least the
kind of settlement that the Court considered in Bancorp.”).
3. Finally, respondents’ arguments for leaving the
decision below in place are particularly unpersuasive
given the procedural posture of this case. In urging a
narrow conception of the Munsingwear doctrine, respondents contend that “[ j]udicial precedents are presumptively correct and valuable to the legal community
as a whole.” Vacatur Opp. 5 (quoting U.S. Bancorp
Mortgage, 513 U.S. at 26). Whatever caution that observation might ordinarily counsel, however, it has substantially less force here, where the court of appeals’ divided decision was issued at the preliminary-injunction
stage; contradicted an earlier published opinion of the
court of appeals at the stay-pending-appeal stage, see
Pet. App. 97a-107a; and was itself subsequently stayed
by this Court, see 140 S. Ct. 1564.
Relatedly, respondents themselves acknowledge
(Vacatur Opp. 9) that “the decision below considered

9
the legality of MPP only in a preliminary injunction posture,” and that the court of appeals “only held that Respondents were likely to succeed on their claims that
MPP was not statutorily authorized and conf licted with
the United States’ nonrefoulment obligations.” If that
is truly all that the Ninth Circuit merits panel held, then
it is difficult to see what value there would be in preserving the court’s decision now that the Secretary has
indicated that the government has no intention of resuming the MPP program. See Mot. App. 14a. If this
Court vacates the judgment below, respondents and
other litigants would remain free to invoke any of the
lower-court opinions in this case as persuasive authority
in any subsequent litigation about distinct programs or
practices that the government might adopt in the future; what they would not be able to do is argue that the
Ninth Circuit merits panel’s decision has a binding
effect in such future cases—the very argument that
respondents now disclaim.
* * * * *
The judgment of the court of appeals should be
vacated, and the case should be remanded with instructions to vacate the district court’s April 8, 2019 order
granting a preliminary injunction.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

JUNE 2021

